V AoS>o

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Darrell Henry Williams
(Your Name)

— PETITIONER

VS.
Joe Coakley, Warden Hazelton USP
— RESPONDENT(S)
PROOF OF SERVICE
Darrell Henry Williams
JUL^
!

, do swear or declare that on this date,
, 20_^_, as required by Supreme Court Rule 29 I have
served/th
OTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
nlosei
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Joe Coakley Warden, USP Hazelton, 1640 Sky View Drive, Bruceton Mills
;
West Virginia 26525
Solicitor General. DQJ. Room 5614. 950 Pennsylvania Ave NW. Wash. D.C.
20530

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

V

'lai1 txt*

, 20Z±

^ATC
*

(Signature)

